Mayer Brown LLP
1999 K Street, N.W.
Washington, DC 20006-1101
United States of America
T: +1 202 263 3000
F: +1 202 263 3300
mayerbrown.com

Archis A. Parasharami

July 16, 2021

Partner
T: +1 202 263 3328
F: +1 202 263 5328

VIA ELECTRONIC FILING

AParasharami@mayerbrown.com

The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

HRB Tax Group, Inc. v. Snarr, No. 20-1570

Dear Mr. Harris:
Pursuant to this Court’s order of March 19, 2020, petitioners in the above-captioned case
respectfully request that the Court delay distribution of the petition for a writ of certiorari until
August 18, 2021. The petition is currently scheduled for distribution on July 28, 2021 for the
September 27, 2021 conference.
In addition to the heavy press of other matters, petitioners’ counsel are dealing with
logistical and other difficulties related to COVID-19, which has complicated their ability to
prepare and finalize a brief that will be most helpful to this Court. This three-week delay would
still permit the Court to consider the petition at the September 27 conference, and thus would not
delay the case’s disposition.
Respondent’s counsel has informed us that respondent consents to this request.
Thank you very much for your time and assistance.
Respectfully,
/s/ Archis A. Parasharami
Archis A. Parasharami
cc: Counsel of record for respondent (via electronic filing)

Mayer Brown is a global services provider comprising an association of legal practices that are separate entities including
Mayer Brown LLP (Illinois, USA), Mayer Brown International LLP (England), Mayer Brown (a Hong Kong partnership)
and Tauil & Chequer Advogados (a Brazilian partnership).

